No.
IN THE
SUPREME COURT OF THE UNITED STATES

ASHLEY DUNN - PETITIONER
vs.
JULIE JONES, SECRETARY,
FLORIDA DEPARTMENT OF CORRECTIONS RESPONDENTS
PROOF OF SERVICE
I, Ashely Dunn, do swear or declare that on this date, June 30, 2020, as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or the party’s counsel, and
on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a thirdparty commercial carrier for delivery within 3 calendar days.
The name and addresses of those served as follows:
Clerk, The Supreme Court of the United States,
One First Street, N.E., Washington, DC 20543
Ashley Moody, Attorney General
U.S. Dept, of Justice, 950 Pennsylvania Ave., N.W., Washington, DC 20530-0001
I declare under penalty of perjury that the foregoing is true apd correct.
Executed on June 30, 2020.
(Signatun
11

